<html>
<title> - European Security in 2018: A Conversation with General Hodges, Former Commander, U.S. Army Europe</title>
<body><pre>[Joint House and Senate Hearing, 115 Congress]
[From the U.S. Government Publishing Office]



115th Congress                                                                                      Printed for the use of the
2nd Session                                                                  Commission on Security and Cooperation in Europe
______________________________________________________________________________________________________________________________                                                          



                           
  
 
             European Security in 2018: A Conversation with General Hodges

                        Former Commander, U.S. Army Europe 
 

                  



[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]





                         January 24, 2018
               
               


                                                                              
                  
                      Briefing of the
       Commission on Security and Cooperation in Europe
______________________________________________________________________________
                      Washington: 2018                                                













                    Commission on Security and Cooperation in Europe
                          234 Ford House Office Building
                               Washington, DC 20515
                                    202-225-1901
                                 <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="05667666604568646c692b6d6a7076602b626a73">[email&#160;protected]</a>
                                 http://www.csce.gov
                                     @HelsinkiComm
                                     

                              Legislative Branch Commissioners
                                       
                                                                              
         HOUSE                                                  SENATE
  
CHRISTOPHER H. SMITH, New Jersey                       ROGER WICKER, Mississippi,
Co-Chairman                                            Chairman
ALCEE L. HASTINGS, Florida                             BENJAMIN L. CARDIN. Maryland
ROBERT B. ADERHOLT, Alabama                            JOHN BOOZMAN, Arkansas
MICHAEL C. BURGESS, Texas                              CORY GARDNER, Colorado
STEVE COHEN, Tennessee                                 MARCO RUBIO, Florida
RICHARD HUDSON, North Carolina                         JEANNE SHAHEEN, New Hampshire
RANDY HULTGREN, Illinois                               THOM TILLIS, North Carolina
SHEILA JACKSON LEE, Texas                              TOM UDALL, New Mexico
GWEN MOORE, Wisconsin                                  SHELDON WHITEHOUSE, Rhode Island                                     
                                       
                                       

                            Executive Branch Commissioners

                                DEPARTMENT OF STATE
	                        DEPARTMENT OF DEFENSE
                                DEPARTMENT OF COMMERCE

                                        (II)


ABOUT THE ORGANIZATION FOR SECURITY AND COOPERATION IN EUROPE


    The Helsinki process, formally titled the Conference on Security 
and Cooperation in Europe, traces its origin to the signing of the 
Helsinki Final Act in Finland on August 1, 1975, by the leaders of 33 
European countries, the United States and Canada. As of January 1, 
1995, the Helsinki process was renamed the Organization for Security 
and Cooperation in Europe (OSCE). The membership of the OSCE has 
expanded to 56 participating States, reflecting the breakup of the 
Soviet Union, Czechoslovakia, and Yugoslavia.
    The OSCE Secretariat is in Vienna, Austria, where weekly meetings 
of the participating States' permanent representatives are held. In 
addition, specialized seminars and meetings are convened in various 
locations. Periodic consultations are held among Senior Officials, 
Ministers and Heads of State or Government.
    Although the OSCE continues to engage in standard setting in the 
fields of military security, economic and environmental cooperation, 
and human rights and humanitarian concerns, the Organization is 
primarily focused on initiatives designed to prevent, manage and 
resolve conflict within and among the participating States. The 
Organization deploys numerous missions and field activities located in 
Southeastern and Eastern Europe, the Caucasus, and Central Asia. The 
website of the OSCE is: <www.osce.org>.


ABOUT THE COMMISSION ON SECURITY AND COOPERATION IN EUROPE


    The Commission on Security and Cooperation in Europe, also known as 
the Helsinki Commission, is a U.S. Government agency created in 1976 to 
monitor and encourage compliance by the participating States with their 
OSCE commitments, with a particular emphasis on human rights.
    The Commission consists of nine members from the United States 
Senate, nine members from the House of Representatives, and one member 
each from the Departments of State, Defense and Commerce. The positions 
of Chair and Co-Chair rotate between the Senate and House every two 
years, when a new Congress convenes. A professional staff assists the 
Commissioners in their work.
    In fulfilling its mandate, the Commission gathers and disseminates 
relevant information to the U.S. Congress and the public by convening 
hearings, issuing reports that reflect the views of Members of the 
Commission and/or its staff, and providing details about the activities 
of the Helsinki process and developments in OSCE participating States.
    The Commission also contributes to the formulation and execution of 
U.S. policy regarding the OSCE, including through Member and staff 
participation on U.S. Delegations to OSCE meetings. Members of the 
Commission have regular contact with parliamentarians, government 
officials, representatives of non-governmental organizations, and 
private individuals from participating States. The website of the 
Commission is: <www.csce.gov>.


                           (III)


 
European Security in 2018: A Conversation with General Hodges,

            Former Commander, U.S. Army Europe

                         ___________


                       July 26, 2017


                                                                        Page
                              PARTICIPANTS


Kyle Parker, Chief of Staff, Commission on Security and Cooperation 
in Europe .............................................................. 1

Alex Tiersky, Senior Policy Advisor, Commission for Security and 
Cooperation in Europe .................................................. 2

Lieutenant General (Ret.) Frederick Benjamin ``Ben'' Hodges, Former 
Commanding General, U.S. Army Europe ................................... 3


                           (IV)




European Security in 2018: A Conversation with General Hodges,

             Former Commander, U.S. Army Europe

                              ----------                              

                          January 24, 2018

  Commission on Security and Cooperation in Europe
                       Washington, DC


    The briefing was held at 10:02 a.m. in room SVC 210, Capitol 
Visitor Center, Washington, DC, Alex Tiersky, Senior Policy Advisor, 
Commission on Security and Cooperation in Europe, moderating.
    Panelists present: Kyle Parker, Chief of Staff, Commission on 
Security and Cooperation in Europe; Alex Tiersky, Senior Policy 
Advisor, Commission for Security and Cooperation in Europe; and 
Lieutenant General (Ret.) Frederick Benjamin ``Ben'' Hodges, Former 
Commanding General, U.S. Army Europe.

    Mr. Parker. I guess it's just about 10:00 by the clock here. On 
behalf of Senators Roger Wicker, Ben Cardin, and the entire bipartisan, 
bicameral leadership of the Helsinki Commission, good morning and 
welcome to the Commission's first briefing on military security in the 
second session of the 115th Congress. Let me also extend a warm welcome 
to one of the great military leaders of our time. Reading General 
Hodges' impressive biography this morning on the Metro brought to mind 
the G.I. Joe jingle of my youth, ``a real American hero.'' General 
Hodges, thank you for your service and for honoring us with your 
presence this morning.
    I am personally very interested in benefitting from your 
perspective on security problems big and small. How are we doing on our 
great post-Cold, post-second war goal of securing a Europe that is 
whole, free and at peace? Is the Organization for Security and 
Cooperation in Europe's concept of comprehensive security as true as 
many of us--in what I like to affectionately refer to as the human 
rights racket--would like to believe? In other words, are problems of 
corruption and the collapse of the rule of law in other countries top-
level national security concerns for the United States? And can 
neglecting them lead to war in Europe? Has it already?
    Has the pace of European integration led to a weakening of national 
identity within individual states of Europe to such an extent that 
populations have become unwilling not only to spend what's needed to 
meet their collective security obligations, but to ensure their own 
national defense? Do we need more flag-waving patriotism in Europe, or 
is it still too soon given the destructive legacy of nationalism in the 
Second World War? And, more in the policy weeds, is it time for NATO to 
update its strategic concept, or does the risk of exposing division 
within the alliance at a volatile moment outweigh any benefits from a 
new concept? Does the NATO-Russia Founding Act have a future, or has it 
been overtaken by events?
    Finally, if we have the high-class problem of a large country like 
Germany meeting its defense spending commitments, might we then 
confront another problem, that of smaller countries worried about the 
militarization of Germany? I have many more, and I'm sure our audience 
does too, but with that I'll turn it over to my colleague Alex Tiersky 
to properly introduce our keynote speaker and moderate our discussion. 
Thank you.
    Mr. Tiersky. Great. Thank you, Kyle. Kyle Parker, our chief of 
staff, of course. And let me be the first to, in this format, say: 
Welcome back to the Helsinki Commission. We're thrilled to have you. 
Thank you for your words this morning.
    I have just a couple of administrative notes. I want to remind 
everyone that this event is streaming live on the Helsinki Commission's 
Facebook page, as well as our website. If you're tweeting, as I know 
many of you do, please use the Helsinki Commission handle, which is 
@HelsinkiComm. My name, again, is Alex Tiersky. I'm the political-
military affairs advisor for the Helsinki Commission.
    And I'm thrilled to see the turnout this morning. I see a number of 
senior congressional staffers in the audience. The diplomatic community 
is well represented, as well as the expert community in Washington. So 
thank you for being here. Of course, we like to think of it as a 
tribute to the Helsinki Commission. I think it's also a tribute to the 
reputation of our guest today.
    Before I formally introduce General Ben Hodges, I'd like to provide 
some context for today's discussion from the Helsinki Commission 
perspective. As many of you will recall, the Commission on Security and 
Cooperation in Europe, the formal name of the Helsinki Commission, is 
an independent agency of the Federal Government charged with monitoring 
compliance with the Helsinki Accords of 1975. Kyle has made reference 
to, of course, this set of commitments. And our commissioners, who are 
composed of nine members from the Senate, nine from the House, 
bipartisan, and one member each from the Departments of State, 
Commerce, and Defense. The commission is thus a bicameral, bipartisan, 
and interagency group of U.S. Government leaders.
    Now, our mandate to monitor the Helsinki Final Act accords of 1975, 
and the commitments contained in it, has really been very active in 
recent years, particularly in the political military space. As you will 
all of course be familiar, there have been flagrant breaches of these 
commitments. Let me name only a few select examples. The commitments 
under the Helsinki Final Act include refraining from the threat or use 
of force against other states; refraining from violating the 
sovereignty, territorial integrity or political independence of other 
states; respecting other states' right to choose their own security 
alliances. We've also seen an extremely worrisome breakdown in the 
commitment to transparency in military affairs, which is a key part of 
the Helsinki Final Act.
    Now, the perpetrator of these breaches of commitments, fundamental 
to the European security order, is, of course, the Russian Federation, 
a country that I would note has very recently been described in both 
the National Security Strategy and the National Defense Strategy as a 
revisionist power and a strategic competitor of the United States. 
Today's briefing thus fits perfectly within the context and the mandate 
of the Helsinki Commission, and represents our continuing efforts to 
track the evolution of the European security environment, to draw 
attention to violations of key commitments, and to explore the U.S. 
role going forward.
    So, ladies and gentlemen, we are extremely fortunate to be hosting 
today a uniquely qualified and distinguished speaker for what I 
understand is his first public engagement out of uniform in Washington, 
D.C. From November 2014 until his retirement in December 2017, 
Lieutenant General Ben Hodges helped lead the U.S. response to Russia's 
military aggression as commanding general of U.S. Army Europe. I could 
spend the next hour simply listing his well-deserved awards, 
commendations, and distinctions, as well as the number of positions 
that he's held. With his permission, I'd like to direct you simply to 
his extraordinarily distinguished biography in your packets for a full 
description.
    But I did want to selectively quote--and this is not something I 
can do for all of our panelists--from a tribute that was included in 
the Congressional Record of the 5th of September 2017, a tribute to 
Lieutenant General Hodges on the occasion of his retirement. Lieutenant 
General Ben Hodges has served our Army and our nation for more than 35 
years. Throughout his career he has commanded our great soldiers at 
many levels. He has deployed to combat numerous times in defense of the 
nation. And he's been assigned to the most critical positions in our 
Army.
    For the past three years, he has been the commanding general of the 
U.S. Army Europe. During this period of extraordinary change and 
challenge in Europe's security environment, Lieutenant General Hodges 
has improved relationships with NATO allies and European partners. 
Through his leadership, Lieutenant General Hodges has successfully led 
his command through some of the most complex issues our Army has faced 
in recent years, with unparalleled results. The foundations set by 
Lieutenant General Hodges will allow NATO and our Army to meet every 
mission requirement in Europe.
    I'd like to underline that although he has retired from the Army, 
we are thrilled that we will continue to benefit from his experience 
and expertise, as he has taken up the position of the Pershing Chair in 
Strategic Studies at the Center for European Policy Analysis here in 
Washington, D.C. Sir, I suspect one of the most challenging 
environments and assignments you've served in was perhaps when you were 
the U.S. Army's chief of legislative liaison. But even in that context, 
we couldn't be happier to welcome you back to the Hill.
    Ladies and gentlemen, we've agreed to structure the briefing with 
an overview from General Hodges. He and I will have something of a 
conversation here at the top table. And I'll make sure to reserve times 
for your questions towards the back end of our briefing. So, without 
further delay, General Hodges, please, the floor is yours.
    Gen. Hodges. Thanks, Alex.
    So I'm very grateful to the Helsinki Commission to give me this 
opportunity. This is my first time out as I make the transition from 
the Army into the civilian side. Carrying a briefcase now. I realize 
you can't carry a backpack and a suit anymore. And so I'm having to 
make some adjustments. And also how to use a phone by myself and get a 
cab by myself. So it's been an interesting transition. I've realized 
people actually do the phone by themselves and make their own flight 
arrangements. It's very interesting. [Laughter.] I was in a bank the 
other day for the first time in 10 years. I had to register my vehicle 
in Tallahassee at the DMV. I felt like I'd really accomplished 
something. I did that by myself and everything.
    Anyway, I loved every day I was in the Army, 37\1/2\ years, but I 
am so fired up about what I call the second half. I mean, I've come out 
of the locker room now for the second half. But I'm lucky that I get to 
be working on stuff that I really love. And so this sort of overview 
that I want to do very briefly up front is the three sort of main 
themes of things that I really care about. And then I look forward to 
the conversation with you, Alex, and with everybody else in here. And, 
by the way, I welcome any challenges on this. What I'm interested in is 
not winning an argument, but being as effective as I can in 
communicating what I think is important for our country and our 
alliance.
    So, number one, why does Europe matter? You know, I'm from 
Tallahassee, Florida. I've been in Tallahassee the last several days, 
and at a friend's house in Beaufort, South Carolina. People don't walk 
around talking about Europe a whole lot. So it's not the front of your 
mind unless you actually deal with it. But when you think about why 
Europe's important for the United States--first, from an economic 
standpoint, the economic relationship between North America and the EU 
is about five times greater than anywhere else in the world.
    Now, in 20 or 30 years, you know, that sort of proportion with the 
Pacific will begin to change. But for now, and the next two or three 
decades, the economic relationship between North America and Europe is 
significantly greater than anywhere else in the world. So even if the 
Europeans don't spend one euro for their own defense, our economic 
prosperity is tied to civilian security in Europe. And our most 
reliable allies all come from Europe, as well as Canada and Australia.
    And we don't do anything--can't do anything by ourselves around the 
world. No matter who the president is, the first thing they start doing 
is looking for coalition partners wherever it is we're going to be. And 
all of our most reliable allies, the ones you can always count on, come 
from Europe, as well as Canada and Australia. So being in Europe, 
maintaining those relationships is essential for our ability to build 
coalitions and to achieve what we're trying to do around the globe. So 
that's why Europe matters.
    Secondly--and by the way, you can't just, you know, dial up 
somebody if you don't have existing relationships, if you don't 
understand what's going on there. So you have to be there. You have to 
engage. And that's certainly what I believe in. The second sort of 
broad theme is the alliance--the most successful alliance in the 
history of the world. Is it perfect? No. But the nature of coalitions, 
the nature of alliances is that you get a group of countries, of 
nations, that have shared common interests. But each one has different 
histories, they have different--a whole range of factors.
    It shouldn't be a surprise to anybody that nations would have 
friction. But when you take a look at the lineup of who was in NATO, 
every country inside NATO, now 29 nations, has fought against at least 
two or three other members of NATO prior to the beginning of the 
alliance, or prior to their beginning, joining the alliance. Think 
about Greece and Turkey. I mean, the fact that both of them are NATO 
countries, given all the friction, the challenge, the hotspots, and the 
ongoing friction--the fact is, they're still in the alliance together. 
And this has helped, I think, create a security framework that for 
almost seven decades now has helped provide stability and security in 
Europe.
    Does that mean that there's no war, there's no conflict, there's no 
friction? Of course not. But that sort of structure is what has 
prevented exactly what it was intended to prevent, was the outbreak of 
a world war. It's provided deterrence and it's provided a framework for 
solving security problems. And I think that maybe during the 
conversation we can talk about how the alliance has, in fact, adapted. 
That's sort of the main theme coming into the NATO summit that'll be in 
Brussels here in July, is NATO adaptation.
    And I would challenge any large organization to adapt and change as 
quickly as the alliance has. When you think about, as an example, the 
deployment of the enhanced forward presence battlegroups. I mean, the 
decision was made at the NATO summit in Warsaw in July of 2016 to do 
that. And by early 2017, you had the first battlegroups all deploying. 
In less than a year, all of them were deployed, and going through 
exercises, and were integrated into Estonia, Latvia, Lithuania, and 
Poland.
    I'm from Florida. And the Florida legislature could not pass a 
highway bill and see construction inside a year, guaranteed. But yet, 
here our great alliance, in less than a year, made a strategic decision 
and then deployed multinational formations into four countries in less 
than a year. I think that's an example of what the alliance is capable 
of doing. And the adaptation that's coming up here, particularly things 
that would improve speed and improve the deterrent capability of the 
alliance, we're going to see this, and an increased role for Germany 
inside the alliance. I think that's what's going to come out in July.
    And finally, the third sort of theme is Germany and the United 
States. I think this is the most important relationship in the world 
for us. That doesn't mean it's the only one. I mean, we'll always have 
a special relationship with the U.K. for historical, cultural reasons. 
But in terms of what's most important, it's Germany. Why is that? When 
you look at Germany's--first of all, their geography. We depend so much 
on Ramstein Air Base, on the port at Bremerhaven. Most of the 30,000 
American soldiers in Europe are stationed in Germany.
    We do things out of Germany that support operations in Africa as 
well as the Middle East. It's an important place for us for transit, 
for entry. And it's obviously critical for transit for alliance forces 
in Europe as well. Everything has to go through, emanate from Germany. 
Germany's economic power is not a surprise to anybody. So if our 
economic prosperity is tied to Europe, then, of course, this 
relationship with Germany is going to continue to be extremely 
important.
    Frankfurt--of course, who knows how Brexit's actually going to turn 
out, but everybody has this feeling, many of the financial institutions 
that are currently in London, many of them are going to begin to move 
to Frankfurt. So Frankfurt's already sort of the financial hub 
certainly for Germany. And I think that's going to increase. A lot of 
American businesses are there. Largest consulate in the world is the 
U.S. consulate in Frankfurt. So an important part of our own economic 
prosperity is tied to Germany. Which, by the way, it always hurts when 
you see State Department being cut, because all that does is hurt our 
business interests, as well as our diplomatic efforts.
    Military potential--Germany has, like they've always had, extremely 
professional quality men and women in their formations. The army is 
working very hard to rebuild its operational capability after 15 years 
in Afghanistan. Like us, they've been focused on Afghanistan and other 
counterterrorism-type things. They now are retooling their 
organizations and capabilities to become a more effective land power, 
exactly as the United States Army, and the British Army, and other 
European armies are trying to do. Now, they have a long way to go. But 
the potential that they have, and they're--what they're able to do with 
their 1.3 percent of defense spending, it's just equal to the 2 percent 
of what is being spent by the U.K., given the size of their economy.
    Now, is that adequate? Absolutely not. Should Germany be doing 
more? Absolutely. But I think we can be a little bit more sophisticated 
about pressing Germany on what they do for defense spending. In my 
view, we need to think more broadly than just tanks, airplanes, 
military hardware, or even expanding the size of their army. What we 
really need to think about is what capabilities can Germany provide, 
does Germany provide to the alliance that would help us, as well as the 
rest of NATO, for security and stability in Europe?
    I believe that they will probably, in Brussels in July, accept the 
designation of this new NATO command called a Rear Area Operations 
Command, and be responsible for transit, rapid transportation, the 
ability to move NATO forces quickly across Europe, which is an 
essential part of deterrence. And that, deterrence, I'd like to come 
back to here at the end, and then I'll hand it back to you, Alex.
    It seems to me if Germany expands their rail capacity, for example, 
more rail cars that can carry tanks, or expands the actual capacity of 
the rail network, expands the port at Bremerhaven, does things like 
that, that improve the ability of the alliance, who cares if it helps 
them domestically. If it has a real military value, I think that that 
should count towards their 2 percent. That's what we need from them. 
Frankly, I don't need to see more German tank battalions or artillery 
battalions. I really need to see more trains. I need to see a lot more 
capacity at Bremerhaven to receive stuff and to move it through.
    And I think that, improved missile defense--the Germans and the 
Dutch have Patriot, just like we do. They could expand their missile 
defense capacity, of which they already have. Even the Social 
Democratic Party (SPD), I think, could probably agree to some of these 
kinds of things. But if we just continue to pound them over the head, 
like, you're not doing your 2 percent--like those are dues to some club 
or something--I guarantee you it's not effective. They just roll their 
eyes and it causes the SPD in particular to dig in even more, then 
they're not going to do it.
    So let's look for a way to be a little bit more sophisticated about 
how we encourage them to invest in defense. And I feel very confident 
that that 1.3 percent will begin to start moving up. And, by the way, 
they still have six more years. I mean, all the allies gave themselves 
10 years to reach that 2 percent back at the Wales summit. So that 
relationship with Germany is so important for economic reasons, 
military reasons, political reasons. We need the Germans to keep the 
pressure on Minsk. EU sanctions are an essential part of making sure 
Russia knows that the West is not going to accept Russia using force, 
changing internationally recognized sovereign borders of a European 
country, like Ukraine, for example.
    So those are my three main themes: Europe matters to the United 
States, the alliance and U.S. leadership in the alliance is so 
important. Even European countries that criticize us all want American 
leadership. They know they need American leadership. They want American 
leadership. And then third, this U.S.-German relationship.
    Let me close with deterrence. I'm extremely proud of what the U.S. 
Army has done without any real significant growth to the Army. The 
Army--we're having to recover from decisions that were made 10, 8, 6 
years ago that probably made sense at the time when we all thought and 
hoped that Russia was going to be a partner. Everybody believed it. So 
I remember the last American tank left Europe about four years ago. So 
for the first time since 1944 there were no American tanks in Europe.
    Well, now, you know, we're bringing them back, pre-positioned 
equipment as well as a rotational brigade. The aviation brigade that 
was in Europe was sent home to pay bills elsewhere. And now we have a 
rotational aviation brigade back in Europe. This is very expensive. Of 
course, without congressional support for EDI, the European Deterrence 
Initiative, which was the European Reassurance Initiative--without 
that, none of this--there is no deterrence. So that funding is 
essential for what U.S. European Command and, of course, U.S. Army 
Europe are trying to do over there. Exercises, rotational equipment, 
pre-positioned equipment.
    I do get asked every now and then by my friends in Europe, is the 
U.S. still committed, you know, with the new president? I basically say 
what Secretary Mattis says--you know, watch what we do. Everything that 
the previous administration committed to at the Wales summit--
rotational forces, pre-positioned equipment, increased exercises, and 
also the U.S. EFP, enhanced forward presence, battlegroup, which is up 
in Orzysz, Poland--everything that was committed to, the current 
administration is executing, is doing, plus an additional billion 
dollars with EDI. So I think Europeans no longer are concerned whether 
or not the U.S. is there.
    But for that deterrence to be effective, it's not just about stuff. 
It's really about speed--speed of recognition, speed of decision, and 
speed of assembly. We could have 10,000 tanks. But if they can't get to 
a place before the Russians do, then that's not deterrence. And the 
Russians have demonstrated over and over and over--whether it was Zapad 
and all the other exercises--the ability to move a lot of stuff real 
far, real fast. We've been working hard on trying to move around inside 
Europe, but you've got infrastructure challenges, you've got diplomatic 
challenges--crossing borders with military equipment--all of these 
kinds of things that the alliance is now working.
    But speed of recognition. The Russians will not line up a column of 
tanks--like I thought when I was a lieutenant in Germany in 1981--where 
you could recognize what's going to happen. It will be cyber, special 
forces, civil disturbances. And it may last for months. So recognizing 
that actually something is happening--and, of course, they would do it 
that way--partly that's how they've always done this. This is not 
something new, the hybrid warfare. This is not new. This is how they've 
always done things.
    But because they know the alliance works on consensus, and so the 
longer they can string out the ambiguity, the better it is to their 
advantage. So recognizing what's going on, and we can talk about that 
as we go. What does that mean? What does that entail? And a lot of it 
involves changing laws and policies about intelligence sharing with 
other countries. I don't know that Five Eyes is actually very helpful. 
That's sort of a construct.
    The speed of decision--of course, we're talking about political 
decision--not only a decision by the NAC, the North Atlantic Council, 
but also, as this thing sort of unfolds, if--and, by the way, there is 
nothing inevitable about this; it doesn't have to happen. The more 
clear we can be in our deterrence commitment the less likely it is that 
the Russians will make a terrible miscalculation. But the more 
uncertain we look, the slower we look, the higher the risk, in my view.
    So the speed of decision is at NAC level. But also, you know, if 
you look at all the pictures of tanks that are in Ukraine, they are 
covered in what we call a reactive armor, because the lethality on the 
battlefield is so severe that the Ukrainians and the Russians and the 
Russian separatists are all covering their armored vehicles with 
reactive armor. Well, we have reactive armor now. We've brought it back 
into Europe. There wasn't any for a while. We brought it back into 
Europe. But that is a big decision. When you put that reactive armor on 
a tank, first of all, it takes time. Secondly, you can no longer have 
them on trains. So the decisions, when--where to move your stuff to by 
rail and then start putting reactive armor on it, that takes time. And 
this all gets factored in too. So from tactical level to strategic 
level political decisions, that speed is going to be very important.
    And then finally, the speed of assembly--you know, how fast can we 
get there? Russia's number one objective is to undermine the alliance, 
to see the alliance come apart. And the quickest way to do that is grab 
a little bitty piece, violate the sovereignty of a NATO country using 
force, and then see if the alliance responds. I mean, that would be a 
very low-risk thing for them to do, actually, if we don't look like we 
can prevent it. So that's why this deterrence and this speed, having 
capability, demonstrating capability, demonstrating will is so 
important.
    All right. Good--well, thanks for hanging with me for that first 5 
minutes or 10 minutes. And Alex, back to you.
    Mr. Tiersky. Sir, thanks very much for what was both a 30,000-foot 
comprehensive overview of some of the strategic challenges that you've 
been dealing with but also--I'm not sure how many people in this room 
were expecting a deep dive on Germany. So that's very much a terrific 
perspective to bring to the table, and it's very much appreciated.
    Sir, I think we have to start our conversation with the events that 
changed global perception of the security environment in Europe, which 
was the takeover of Crimea, the illegal occupation there, and, of 
course, Russian aggression in Eastern Ukraine, which is ongoing. Can 
you talk to us, as a starting point, a bit about U.S. Army support to 
Ukraine? Talk to us a little bit about what we're learning from their 
fight and from our support to their fight?
    Gen. Hodges. So Ukrainian soldiers are really tough. I mean, they 
are good, hard, adaptive, resilient soldiers. They were not prepared--
the military was not prepared, of course, when Russia invaded Ukraine, 
specifically Crimea. You all watched that. And then when they went into 
the Donbas region on the Donetsk and Luhansk oblasts. But they have 
responded. And they've stopped--along that line they've stopped the 
Russians. I mean, my guess, somewhere between 35(,000) and 40,000 
Russian-led separatists. Of that, probably 4(,000) or 5,000 actually 
are Russians. Most of the commanders at every level are Russians.
    And obviously the OSCE has been prevented--you know, the brave men 
and women that are the special monitoring mission of the OSCE, 
Organization for Security and Cooperation in Europe, have not been 
allowed to monitor the border between Ukraine and Russia, which is that 
border between the Donbas and Russia. It's wide open. So the amount of 
ammunition, equipment, people, it's wide open coming in there.
    So the U.S. response, and frankly the response of the West which is 
important to remember--people talk about Ukraine, you know, there's 
corruption and there's no transparency, and all that. Sure enough. I 
mean, there's a lot to do. And I think U.S. policy and the expectations 
of the West towards Ukraine are correct. And expecting, demanding 
cleaning up corruption, improving transparency of the defense budget, 
for example, which the Rada has been asking for--the Ukrainian 
Parliament.
    But at the same time, the European Union has continued its 
sanctions against Russia. So no matter how grumpy people might be about 
Ukrainian lack of transparency or corruption, the fact is nobody is 
willing to accept that it's okay for Russia to use force to change a 
sovereign border of a European country. This is not the 18th century 
where that was common, where people would divide up big, giant chunks 
of the continent. Not in the 21st century. So that's very important. 
Which, again, is why I think French and especially German leadership is 
so important here.
    The U.S. Army's role in this, of course, was to help with the 
training mission. There's a training center at a place called Yavoriv 
near the city of Lviv in western Ukraine. And we've got about 250 
American soldiers there today, about 150 to 200 Canadian soldiers, and 
you've got Lithuanians, Poles, and Brits that are all part of this 
training effort helping prepare Ukrainian battalions to go to the 
front, to go fight. And I've watched this now over the last couple 
years, as the quality of the training has improved, the quality of the 
output, and especially the quality of the training center itself, so 
that Ukrainians are able to do their own training the way we do at the 
National Training Center in the States or at our great training center 
at Hohenfels and in Grafenwoehr in Germany.
    Seeing the Ukrainians invest in the institutional requirements to 
field a quality force is very important. I could not speak much to the 
Ukrainian naval capabilities. Our U.S. Marines are working with the 
Ukrainian naval infantry down towards Odessa, helping them improve. But 
I would not be the expert on their naval capability. But certainly, 
they need to be able to protect their coastline because if Russia--if, 
again, it's not inevitable--Russia tried to expand to get the whole 
coast along the Sea of Azov, which would mean Mariupol, for example, it 
would require an amphibious operation by the Russians. And so the 
Ukrainians need that sort of capability. And certainly, the air defense 
capability that the Russians have provided in the Donbas keeps 
Ukrainian Air Force out of there, so that they're not a factor right 
now.
    Our soldiers, who have spent so much time with Ukrainian soldiers 
in Yavoriv, have learned as much from them as they've ever learned from 
us, because, again, our experience for the past 15 years has been in 
Iraq and Afghanistan. And we never had to worry about anything 
overhead. We never really had to worry about--I mean, the Taliban 
doesn't have rocket launchers. It's a different fight. And so 
Ukrainians now have been fighting in this environment against Russian 
forces for the last three years.
    What we have learned from the Ukrainians is that the Russians are 
extremely effective at integrating drones, UAVs of all types, and 
electronic warfare and artillery and rockets, so that they're able to--
as good or better than we can in many cases--are able to detect 
something, whether it's an intercept or they spot something with a 
drone. And then, within minutes, rockets or artillery are hitting that 
target. You know, we provided seven 236 radar systems to the 
Ukrainians. Of course, the Russians, not surprisingly, came after that 
immediately. And they managed to get one of them that was out in a 
field--it was out in the open, just for a very few minutes. Just a few 
minutes too long. Was detected and then struck. So they've got that 
capability. This is a very high-end thing, which, by the way, is 
something they exercised a lot during the Zapad exercise.
    So this has affected our training. What General Milley directed all 
of our training centers to do is, like, everything that the Russians 
have put on display in the Donbas, the opposing force--the dreaded 
opposing force at the National Training Center or at Fort Polk or at 
Hohenfels now has that capability--drones, long-range fighters, and 
connecting it all. The electronic warfare capability, again, that's 
something we never had to worry about in Afghanistan or Iraq. The 
Ukrainians live in that environment. So you cannot speak on a radio or 
any device that's not secure, because it's going to be jammed or 
intercepted or, worse, it's going to be found, and then you're going to 
be hit. So that's part of this. I think can talk about Javelins a 
little bit later if you'd like, what that means as well.
    Mr. Tiersky. That's actually, for me, the very next question. I 
mean, the debate here for a long time was a kind of binary lethal 
assistance/not lethal assistance kind of debate. Now that some of these 
decisions have been made, how important do you think those decisions 
are? How impactful? And let me wrap into that, what more could or 
should we be doing to support Ukraine in regaining its territorial 
integrity?
    Gen. Hodges. Well, helping them--if that's our policy--if that's 
U.S. policy to help re-establish Ukrainian sovereignty, then we've got 
to be serious about it. And, of course, providing lethal aid is an 
important part of that, helping to raise the cost for the Russians 
where it's a little bit more painful for them. So this should improve 
the bargaining position or the negotiating position of Ukraine in the 
Minsk process. I mean, that should change the dynamic. And I have real 
trust in Ambassador Volker and the approach to help make Minsk work. I 
mean, obviously, there has to be a diplomatic solution to this. Russia 
has to, at some point, agree to stop supporting the separatists or to 
pull out to allow the re-establishment. Getting to a diplomatic 
solution is critical.
    And so providing Javelins and other types of lethal aid, I think, 
is a useful part of that. I think that the Russians are able to 
exploit, though, the corruption that goes on in Ukraine. Without fixing 
that, there's always going to be an undermining of the effort. And I 
know there are a lot of people working with the minister of defense, 
other ministries inside Ukraine, from the U.S. and from the alliance, 
that are working on those projects. The George C. Marshall Center in 
Garmisch has been an excellent venue for helping Ukrainian Ministry of 
Defense and Ukrainian Rada members work towards something that you 
would all recognize as congressional oversight of the military.
    Right now the Rada has just about zero oversight of the budget, 
where the money goes. And they're desperate to get that. I think that's 
something that we should continue to do, so that the Russians cannot 
continue to exploit these gaping holes in what we would expect in a 
democratic society, oversight of where the money goes. I think that's 
as important as providing Javelins. Still, they--the Ukrainians have 
got to believe, and the Russians have got to believe, that we are going 
to stick with them. We're going to continue to support them with 
training.
    By the way, it's the New York National Guard is who is in Yavoriv 
right now doing the mission. They replaced the Oklahoma National Guard 
doing that mission, because the U.S. Army is not big enough to keep 
doing that mission. So we've turned to the National Guard. And Oklahoma 
did a great job. New York's doing it now. And I don't recall who's 
coming next behind New York.
    I think we probably ought to look at other things that we can do to 
continue to show Russian involvement in the Donbas. I mean, nothing 
happens in a vacuum, but certainly we have the capability to show 
everybody what Russia specifically is doing in the Donbas. And I think 
that would be helpful to keep pressure on Russia to live up to what 
they've said they were going to do.
    Again, I've mentioned OSCE before--the Organization for Security 
and Cooperation in Europe--the special monitoring mission that they're 
doing is really important. They report that typically about 90 percent 
of the ceasefire violations are from the Russian-led separatists. And 
this is--and that's even after acknowledging that they are not able--
the separatists keep them away from a lot of the places. So they still 
are not able to go everywhere, but they still report typically about 90 
percent of the violations come from the separatist side. And there are 
Ukrainian soldiers that are getting killed every week still. So there 
is this kind of a drip, drip, drip that goes on, which is exactly what 
the Russians want, of course, is to keep it a mess so the Ukraine could 
never join the EU or NATO, and just to continue to undermine the 
Poroshenko regime.
    Now, I did go visit the--I'm a little bit of a history nerd, and I 
had heard about this tank factory in Kharkiv. Of course, Kharkiv was a 
great--I think three times during World War II between the Soviets and 
the Germans fighting back and forth, it was a very important city. This 
is where the famous T-34--probably the most famous tank, certainly of 
World War II--was designed and produced. I said, well, I've got to go 
see this place. And so I did. And it looked exactly like what you might 
imagine an old Eastern European giant factory would look like. There's 
no evidence of OSHA there, that's for sure. [Laughter.]
    But there were some really proud employees. This one guy had been 
working there for 50 years. I mean, they were smoking cigarettes and 
they were wiring tanks and, you know, putting things together. And they 
were cranking it--they were doing repair of battle-damaged tanks. And 
they were extremely proud. And they were saying how this was a better 
tank than the Abrams tank, better than Leopard, whatever. So it was 
really fascinating.
    Well, I'm watching them. And then I notice on the other side of the 
factory there's a long line of shiny brand-new tanks. And I'm like, 
well, what are those? Oh, these are for export.
    Well, export? I mean, you're asking us to provide Javelin and 
you're exporting tanks? And so--and there's not a simple answer to 
this, and I would not claim to fully understand it. But they have the 
technical capability to produce really, really good stuff. But the way 
that their defense industry is kind of set up, and the lack of 
transparency, they're not buying, or can't afford--and again, I'm not 
the expert on this but I just know what I saw with my own eyes--they 
could be producing more.
    But this goes back to how their economy is structured and 
congressional oversight or Rada oversight. I think that--getting that 
right, getting their defense structures right, having a joint sort of 
command that fights the fight--you know, they've got a general staff. 
And General Muzhenko, who's an exceptional soldier, the chief of 
defense, and very impressive. As more and more of the younger officers 
move into the higher ranks, you know, more Western-oriented, I think 
we're going to keep seeing improvement. But General Abizaid, who is 
helping to advise the minister of defense, is working very hard on 
these things. I would obviously defer to him on the specifics. But 
those are all things as important as providing Javelin.
    Mr. Tiersky. General, I want to shift gears a little bit here and 
ask you about something that I have developed something of a personal 
interest in, which is Russian military exercises. I had the opportunity 
to go to Belarus for the final phase of Zapad 2017. Fascinating 
experience. The consensus is that the transparency commitments that 
Russia is a signatory to under the Helsinki Final Act, including its 
modern expression, the Vienna document, that those commitments were in 
fact breached. Any number of senior international officials have stated 
as much. I would love your thoughts on both transparency regarding 
Zapad, the broader trends in Russian military exercises, and the 
absence of transparency--how that relates to their commitments under 
the Vienna document, among others. And then let's--you know, let's put 
it out on the table. How do we do transparency? How does that differ? 
And why does transparency in military exercises matter at all?
    Gen. Hodges. Could I have that European map, please? The first one?
    Now that I'm by myself and I don't know how to make slides, I rely 
on other people to make them--at least provide a map. [Laughs.] The 
transparency is an important part of this because it helps reduce 
tensions--I mean, the obvious thing--the reason we've had observers and 
stuff like that is to prevent one side from being able to launch a 
surprise attack. And so it's a confidence-building thing to have that 
transparency. And exercises in the West, we've always invited 
experienced journalists all over the place. In fact, we beg journalists 
to come out to the exercise, because you're wanting to demonstrate what 
you're doing and highlight what you're doing. Congressional 
delegations, that's a part of the transparency, having CODELs.
    I've seen more CODELs in Europe this last year--I saw more CODELs 
in Europe this past year than I think I've ever seen in Europe, which 
was a great thing because it demonstrates people are interested. You 
know, members, staff, don't have a lot of time. So you pick and choose 
where you want to go when you do have these opportunities to come 
visit. So when you have CODELs to Yavoriv or come to Hohenfels, or go 
to visit soldiers that are exercising in Poland, for example, things 
like that. And by the way, you'll never end up in The Washington Post 
on a boondoggle article if you go to Hohenfels. No one will accuse of 
you exploiting anything there. [Laughter.]
    It's so important to help communicate what it is we're doing. And 
if we say we are defensive in nature as an alliance, the journalists 
are there. And I always--I would have journalists almost every day on 
an exercise go with me, different ones--European as well as American--
so that they could see for themselves what it is we're doing.
    The other side, unfortunately, there's zero transparency, which is 
why everybody that lives from Estonia down to Bulgaria absolutely 
believes that the Russians could and would use an exercise as a sort of 
a Trojan horse to--that was not my word--those were not my words. That 
was the Europeans--to get a lot of people next to a border and then, 
without much warning, they're there. They're inside, whether it's 
Lithuania, Latvia, Romania, whatever. The Romanians would always tell 
me, hey, Ben, you know, we have a border with Russia too. It's called 
the Black Sea. So they are absolutely worried and believe.
    So it's interesting that all the countries that have either been--
that were Soviet Republics--and, fortunately, the United States never 
recognized Estonia, Latvia and Lithuania as officially--fact is, they 
were. Them, or Warsaw Pact countries, or, of course, Georgia and 
Ukraine that were Soviet Republics--all of them believe that the 
Russians would do it. So the further away you live from Russia, the 
less likely something that like that seems.
    Regardless, that was--if the Russians were truly interested in 
being seen as a global power, if they were truly interested in 
stability and security in Europe, then they would be--I think could be 
more transparent, and people would not be so anxious. And I have no 
illusions that that's what they're going to do. But that would go a 
long way to demonstrating commitment to they really want security and 
stability in Europe, by being more transparent.
    Now, for three years I've been trying to get Belarus, and I was 
never allowed to go. You've got to go there. And when you look on the 
map, for us Belarus is a gigantic black hole. We have a charge there. 
We have a military attache. But they end up having to spend a lot of 
their time in Lithuania. So they go back and forth. We just don't know 
much about what's going on there. But yet, it's such a critically 
important place geographically from our perspective, in terms of 
deterrence. If Russia was ever going to do anything against a Baltic 
country or Poland, Belarus is going to be at least a transit place.
    And honestly, I can't make up my mind about where Belarus is. You 
see indications that they really want to break free somehow of Russia, 
be more Western oriented. You've seen demonstrations. I believe those 
are legitimate. But I also believe that they are so beholden to Russia 
for a variety of reasons that they can't go as far as they want. So we 
just don't know. If you talk to some in Lithuania, for example, they 
absolutely--and I wouldn't attribute this to anybody--but I'm sure most 
Lithuanians believe that Belarus is completely with Russia. But other 
countries will have a different view. So it's not a simple thing to 
figure out what they're going to do, which is why I wish we knew more 
about it. I wish we could get back into Belarus in a big way.
    What my take away is from Zapad--first of all, I absolutely believe 
there were about 100,000 people involved in it. Now, there were not 
100,000 troops at one place. They were--that Zapad actually was a 
collection of exercises all over Russia and Belarus. And what Russia 
attempted to do, and I think probably got away with it to some extent, 
was make everybody think that Zapad was just what was in Belarus. And 
you had about 12,700 troops involved, which is below the magical 
13,000, which is amazing, by the way. Every Russian exercise somehow 
miraculously only has 12,700 soldiers in it. I never know how many of 
our guys are in an exercise. It changes all the time. So now they can 
so definitively say there were only 12,000--it's impressive.
    And I'm very sure that every Russian soldier that was in Belarus 
left at the end of the exercise, and probably took most of their stuff 
with them. So I don't think that was what many people feared it was. 
But because everybody tended to focus on that, they didn't pay as much 
attention to everything that was going on everywhere else in Russia. 
And it kind of depends on where you draw the circle. What was Zapad? 
What was included? And people passing through there--air force, rail, 
logisticians, not just infantry battalions or artillery battalions that 
were in the exercises--I think you probably add it all up and it's 
close to 100,000 people participated in that Zapad series of exercises 
at some point.
    So in terms of takeaways, we did have the best and highest level of 
cooperation sharing intelligence that I think I've ever seen in Europe. 
Estonians, Latvians, Lithuanians, and Poles will know more about 
Russia, Swedes and Finns will know more about Russia than we'll ever 
know in a million years. I mean, for language, history, they're there, 
relationships. And so we--I think our intelligence structures worked 
very hard to be more integrated with allies. And there was more sharing 
of intelligence at all sorts of different levels--unilateral, 
bilateral, multilateral as well as in the alliance, because we were all 
waiting to see what was going to happen. So it showed that it could be 
done, and I think that that ought to be the norm. Remember what I 
talked about, speed of recognition.
    Now, our posture--you know, General Scaparotti was supreme allied 
commander and also my commander as commander of the U.S. European 
Command. He said: Look, we're not going to do anything that's stupid or 
provocative. You know, we're not going to have everybody up in the 
parapets. This is not going to be the Sharks and Jets, you know, out in 
an alley somewhere. We're going to do what professional militaries 
always do, which is to be ready. So all the normal exercises that were 
already scheduled is exactly what we were doing.
    So you had the exercise Aurora, Sweden's largest exercise. That 
took place. You had an exercise going on in Ukraine, which was already 
scheduled, Rapid Trident. And then Poland had its exercise going. So 
everybody was doing normal stuff. We still did our rotation, the 
armored brigade combat team, on time. That all continued. And I think 
that was exactly the right posture to have. So it didn't look like we 
were being provocative or overreacting to a Russian exercise. But 
everybody was certainly well prepared.
    The second thing I think we learned is they--I'm not 100 percent 
sure yet, but the Russians have always used exercises to test concepts, 
which I'm kind of envious of. I like that. And I think NATO exercises 
should focus--don't worry about making a mistake. Let's test concepts. 
Test new command structures, which is what the Russians did. And I 
believe they probably discovered that their new structures were not 
quite ready for primetime yet. But no doubt they worked hard on that 
and will continue to work on it to get their new command structures 
right. They did a pretty extensive fire exercise up in northwestern 
Russia at a training area up there, where they continued to practice 
integration of fire in UAVs, to continue to develop that.
    So it was a serious exercise, but I think some people walked away 
saying, oh, you guys overreacted. I had German friends saying, see, I 
told you it wasn't going to be a big deal, because they bought the 
little Potemkin village thing going on in Belarus, and not the other 
80,000 that were involved in doing all the other things. And now that 
I'm an old person, all I care about is logistics. You know, when I was 
a young officer all I cared about was shooting and going to the range 
and flying helicopters. Now all I care about is rail transport and sea 
ports and having stuff--big piles of ammunition and fuel, everything 
that you need so that the young guys can come in there quickly. And the 
Russians demonstrated, again, that they can move a lot of stuff real 
far, real fast.
    Mr. Tiersky. Sir, thanks for that. I see the audience chomping at 
the bit to ask some questions. And I'm really eager to get to them. You 
know, I hope that I have endless questions from how is the Schengen 
Zone for military transport going, a little bit more on the NATO 
summit, how are we dealing with the whole arms control architecture in 
Europe with Open Skies, CFE, Vienna document, INF, with the Russians 
not playing ball----
    Gen. Hodges. Is that one question?
    Mr. Tiersky. No. [Laughter.] I'm going to hope that the audience 
asks these questions for me, because what--before I send it over to 
them I want to make sure to put on the table one more of the many 
different questions we could talk about. Turkey clearly is of concern 
to our commissioners. We have had a number of events featuring 
different aspects of the evolution of Turkey in recent times. You 
served in Turkey fairly recently at a very senior level, in charge of a 
NATO command there. Give us your thoughts on the evolution of Turkey as 
a strategic ally, your relationships there. Please take that where 
you'd like.
    Gen. Hodges. So Turkey is such an important ally for us. I mean, 
you look at the--again, the map, the geography of where Turkey sits, 
there's a reason that Turkey was invited to join NATO. They've been a 
member since 1952. There's been a NATO headquarters of some sort in 
Izmir since 1952--longer than any other place in Europe except Naples. 
So Turkey has been a loyal ally and a great teammate for all those many 
years. They have a very, very capable, professional, well-equipped, 
disciplined military. General Akar, the chief of defense, is one of the 
finest people I've ever met. That guy is a great soldier.
    But, of course, he has political bosses too. And he's been given a 
mission. And I think most Turkish officers would tell you that they're 
fighting three terrorist organizations. They're fighting ISIS--in fact, 
they'll say they're the only country fighting three terrorist 
organizations--ISIS, Kurdish terrorists--which they define differently 
from us, which is a huge problem for us in our relationship--and then, 
of course, the Gulenists. Those are the three terrorist organizations 
that they're fighting. And they're dead serious about it.
    I think that--I didn't appreciate this earlier, the fact that, you 
know, we have--see a nuanced difference between the different type of 
branches of Kurds in Turkey and Syria. The Turks don't see it the same 
way. And so I think, you know, that, as always, there's such a 
difficult strategic choice that you have to make for, hey, if the 
Kurds--if we're saying that destroying ISIS is our number one priority, 
who's the best at it? Well, the Kurdish forces have been extremely 
effective. So you could see the attraction of that. But then you 
balance that against, what's that doing to our relationship with an 
extremely important ally, Turkey?
    So that's a real tough challenge for our leaders. I know that U.S. 
European Command leadership works on this all the time, and certainly 
here within DOD working on that, because everybody recognizes the 
importance of destroying ISIS, but also preserving an ally. Not just a 
friend or a partner or something like that--an ally, a NATO ally. That 
this is very important for us, not just so we can fly in and out of 
Incirlik, but I mean, that's the counterweight in the Black Sea. This 
is a very important ally for us. And I hope we can find a way out of 
it.
    Right now I'm very worried that, you know, potentially you've got 
Turkish soldiers shooting at Kurdish soldiers, having American advisors 
in those formations. This is a potentially dangerous situation. Now, we 
have exceptionally talented leadership in U.S. Central Command, General 
Votel and, of course, General Thomas at U.S. Special Operations 
Command. Those guys, they are fully aware of all this. But that's a 
really difficult situation and I hope we can avoid rupturing this very 
important alliance.
    Now, to be fair, I think Turkey always is quick to take offense at 
things too. So, you have to manage that as a part of a relationship. 
But they are so important for us. And they've been such a good ally. 
And it's a great people and a great country. I was there for two years 
in Izmir. And it's terrific. Incredible people. It's a very difficult 
political situation right now. Of course, the Russians are loving this. 
Not just for selling weapons, potentially, but when you think about 
deterrence and how important the Black Sea is for the Russian Navy, if 
not having Turkey completely onside with us, you know, that's exactly 
what Russia, of course, would love to achieve.
    Mr. Tiersky. Well, we've got some time for audience questions. And 
if you wouldn't mind introducing yourself when I call on you for a 
question. I see a question right here, please. Wait for the microphone, 
if you wouldn't mind.
    Questioner. Good morning. It's Andrew Fillon [ph] with the Embassy 
of Liechtenstein.
    Lieutenant General Hodges, do you think that the amendments on the 
crime of aggression to the Rome statute that were introduced in Kampala 
in 2010 might have to be strengthened in the face of cyberwarfare, 
civil disturbances, and the modern hybrid warfare that we see Russia 
invoking?
    Gen. Hodges. Would you say the first words again?
    Questioner. Do you think that the amendment to the crime of 
aggression to the Rome statute that were adopted in Kampala, Uganda in 
2010 might have to be strengthened?
    Mr. Tiersky. Sir, I think I saw another question. I might want to 
take two at the same time.
    Gen. Hodges. Okay.
    Questioner. Orest Deychakiwsky, Helsinki Commission staff, retired. 
I covered, among other things, Ukraine and Belarus for many, many years 
for the Commission.
     I wanted to ask you a little bit more about the role and 
importance and value and contributions of some of the eastern NATO 
countries. You drilled down a bit on Germany, you know, for obvious 
reasons, but if you could talk more about that. And not only the Baltic 
states and Poland, but also Romania and Bulgaria, especially given the 
Russian militarization of the Crimean Peninsula.
    Thanks.
    Mr. Tiersky. Two very different questions.
    Gen. Hodges. Great. Well, I know the alliance is working hard at 
taking on the question of what constitutes an armed attack. You know, 
Article 5, the armed attack. And of course, when it was written up, an 
armed attack meant, a nuclear strike or jets or tanks or something in a 
traditional sense. But today, you can cause as much or more damage with 
cyberattacks on the right kinds of places in terms of damage to another 
nation--whether it's economy or disruption--through the use of cyber. 
And so I know it's a question that the alliance is going to continue to 
look at, is what would constitute an armed attack.
    One of the things that will always make it difficult, of course, is 
attribution. I think we have become increasingly effective at being 
able to attribute where something might come from, but that's typically 
going to be after the fact--after somebody's economy is wrecked or 
transportation networks have been disrupted or damaged for long periods 
of time, things like that. But I think that sort of attack or 
aggression has to be taken into account by the alliance, and also by 
the United States and other countries. What constitutes that? 
Otherwise, states will able to do things that harm nations, harm 
economies, without too much fear of real retribution.
    Now, for our other allies--probably by the end of 2018 everybody on 
the east flank of NATO, from Estonia down to Romania, is going to be a 
2 percenter. I mean, all three Baltic countries, Poland and Romania 
will all be in the 2 percent club. Poland and Romania, of course, have 
the Aegis antimissile systems. They're buying Patriot. Poles are going 
to buy HIMARS, which is an excellent long-range rocket system as well. 
They're all working very hard to modernize formations, equipment. 
They've gotten serious about defense planning. So they've taken Article 
3 of the Washington Treaty--which is the one that says you're supposed 
to defend yourself also--they've taken that very serious.
    Quality of officers, soldiers, quality of training that they do 
now--I mean, they really are breaking free, getting unshackled from 
their Warsaw Pact past. Getting a core of noncommissioned officers, 
having sergeants is something that you would not have seen in the 
Warsaw Pact days, where officers did all the NCO stuff. And of course, 
that's one of the best ways to connect your army to your population, is 
through noncommissioned officers, where young men and women see 
opportunity. And it's a great part of their defense. And so I'm 
actually very impressed from what I've seen from every one of those 
countries.
    You know, the U.S. Army in Europe--Poland is the center of gravity, 
actually. You've got the division headquarters in Poznan. The Polish 
Air Force Base of Powidz. We've got close to 1,000 American soldiers 
that are there. It's a logistics and Army aviation site to help support 
everything in northeast Poland, to help with that speed of assembly. 
Now, all of them want to see more American soldiers there. And I think 
we could talk later about rotational versus assigned and what's enough, 
because I do get people pulling on my sleeve all the time about that 
when I'm in Lithuania or Poland. And there's a lot of interest in doing 
that. But I think there's a lot of reasons not to do it as well that we 
could talk about.
    Bulgaria is interesting. We actually--thanks to former Deputy 
Assistant Secretary of Defense Jim Townsend, in Novo Selo, there's a 
training area there, which is a Bulgarian/U.S. training area. And we've 
got two companies that are permanently there from the rotational force. 
And that has really--thanks, again, to the European Reassurance 
Initiative, now the European Defense Initiative, it's turned into a 
very good training area. The Bulgarians also have supported us with 
being able to transport out of their ports on the Black Sea. We've 
moved strikers and tanks across the Black Sea to Georgia, for example, 
for exercises. I think they have more challenging domestic issues to 
deal with, so they're not at the same level of investment yet as 
Romania is.
    Romania--under President Obama, we increased our troop strength in 
Afghanistan, the so-called Obama surge. Only three countries 
increased--the United States, obviously, the U.K., and Romania. Romania 
doubled their contribution there. And they're very good. So I'm 
impressed with what Romania does. We have at--near Constanta on the 
Black Sea, there's a huge port there, there's a Romanian air force base 
called Mihail Kogalniceanu, which we all call MK, for obviously 
reasons. And it's a Romanian air base. And inside of that is a U.S. 
forward operating site. We have half of a battalion that's there from 
the rotational force, ammunition. It's a place to project power from in 
exercises in that region, which is what we're trying to recreate in 
Powidz up in Poland. So you've got two forward operating sites that 
would facilitate rapid deployment and forward logistics and that sort 
of thing.
    Georgia, again, another great country. You know, they've got 
nothing left to prove--they've suffered more casualties per capita than 
any other country in Afghanistan. They are very, very good. And I think 
they've got the right sort of approach now to their own defense. We are 
constantly in Georgia, both regular army as well as U.S.-Georgia 
National Guard State Partnership Program. The problem is that 20 
percent of that country is still occupied by Russia. Despite Russia 
agreeing to pull out after the so-called Sarkozy Agreement in 2008, 
they still have several--about 10, 000 Russian soldiers sitting in 20 
percent of Georgia.
    Mr. Tiersky. Sure. Let me take right here in the front.
    Questioner. Thank you. Natalia Robert [sp], Voice of America.
    Ukraine's asking for lethal weapons for four years. And now finally 
the administration last month, in December of 2017, approved the sale 
of lethal weapons to Ukraine. How do you see the dynamics of the 
conflict changing, and if you see that it'll change?
    Gen. Hodges. So I was actually a little surprised. I hadn't seen as 
much of a reaction from the Russians or Europeans to that decision, 
which tells me that Ambassador Volker did a great job of laying the 
groundwork and making sure that this decision did not break up the 
unity of the alliance, and keeping that sort of pressure. So I think 
that's a positive thing. We're not talking about thousands of these 
things, obviously. But the Javelin is the best anti-tank weapon system 
there is that an individual soldier can carry. It's very good. And so 
the key will be how the Ukrainians choose to employ it.
    So whenever we provide a weapons system to another country, there's 
a package that goes with it. There's training, and some things--it's 
not just a ``here you go.'' There's a training aspect to it. It does 
not have magical powers, but it is very good. I don't know how they're 
going to use them. But I am very confident that the Russians will be 
looking for where those things are, because it is a very capable system 
that can change how people think about things.
    Now, with the ceasefire in place you shouldn't see lots of tanks 
moving around, that sort of thing, anyway. But they will always know 
that that capability is out there. And so I think that causes the 
Russians, the separatists, to rethink where they might try to--which 
typically happens, is where you make a small grab to move the line a 
little bit during certain periods. I think this is going to force them 
to rethink what it is they're doing.
    Questioner. May I have one more question, or----
    Mr. Tiersky. We'll come back. I did want to follow up on something 
you said in your prior response, which we haven't touched on at all, 
which is the linkage to European publics. I know it was a high priority 
of yours as commander, as demonstrated even today, to tell the story of 
the European Reassurance, European Deterrence Initiative to publics 
both here and in Europe. Can you talk a little bit about how that 
aspect of this has gone? Ultimately, you need host nation support. You 
talked a lot about Germany, how is the German public viewing the 
proposals that you have--or the proposals that would be on the table 
for increased defense spending, increased capabilities, even in the 
context of logistics.
    Gen. Hodges. I think the government of Chancellor Merkel, and with 
Defense Minister von der Leyen, has been very clear about Germany doing 
its part. And I've seen evidence of that. The Bundestag, the 
Parliament, has a really strong role in what the military can do. I 
mean, they generally did exactly what we asked them to do, make sure 
they could never invade anybody again. I mean, they couldn't invade 
Luxembourg today. I mean, there's so many laws. And that's an outcome 
of the Second World War.
    Now, I think they need to kind of break free of some of that. 
That's seven decades, and Germany's role shouldn't--they can't behind--
well, you know, our neighbors would be worried about a resurgent German 
military. There was a senior Polish diplomat one time said a weak 
Germany is more to be feared than a strong Germany. It's worse for 
Europe. And I think that the fact is the Bundestag has supported--there 
are currently 14 mandated operations--meaning 14 Bundeswehr operations 
where German men and women, soldiers or airmen, are deployed somewhere 
around the world with the support--or, the formal approval, which is 
required, of the Bundestag.
    You'd have a hard time finding many people in the U.S. that are 
aware that they're doing that much. And I don't know how many Germans 
are even aware that they actually are taking on such a role. But they 
could not do it without the Bundestag. And so that, to me, indicates 
that there's support for Germany taking on more responsibility. 
Obviously, the influx of migrants, which started two years ago and 
which has subsided somewhat, really changed the dynamic inside Europe 
and inside Germany. Obviously, the CDU and CSU paid a big price for 
that in the September elections.
    But I think even Germany, which has so many business ties to 
Russia, has recognized that Russian aggression is not acceptable. And 
the Germans were the first to deploy their EFP battlegroup to 
Lithuania. I mean, within months of the decision they had that 
battlegroup up in Lithuania. That's a significant step. And I think 
they would not have done that if they weren't confident that most of 
the country was behind it. I'd like to see more public discussion by 
the minister of defense about why it is, what they're doing. I think 
that would help explain it.
    Mr. Tiersky. Good. I'd like to give the audience one more shot at a 
final audience round to put General Hodges on the spot. I've got a 
couple questions of my own that I'd like to close with. Anyone from the 
audience have something you'd like to put to General Hodges?
    Gen. Hodges. You had a follow up, I think.
    Mr. Tiersky. Please.
    Questioner. The U.N. peacekeepers, do you think that the Russians 
will ever agree to have U.N. peacekeepers sent over to the occupied 
territories, not only along the demarcation line?
    Gen. Hodges. In the Donbas?
    Questioner. Yes.
    Gen. Hodges. Well, I think the fact that they offered that up at 
some point doesn't mean that they want to do it. But that's part of the 
whole--their approach. I think there's value in it, but it's got to be 
the right countries. I mean, it's got to be serious, quality people 
that could actually--and whatever the mandate is. You know, the Dayton 
Peace Accord that was carried out, when NATO went into implement the 
Dayton Peace Accord, with the IFOR, implementation force, you had the 
right rules of engagement, they were armed to the teeth. I mean, they 
were ready. And that communicated to the Serbs and everybody else that 
this was serious. And, you know, the SACEUR at the time, General 
Joulwan, made that very clear, that he had the right rules of 
engagement.
    So if it's a U.N.--that's different, obviously, from IFOR--but if 
it's a U.N. force, they've got to have a mandate that doesn't freeze in 
place forever what Russia has already achieved. It's got to be about 
implementing the Minsk agreement, in my view. And it can't be just 
anybody that volunteers for a blue helmet mission. It's got to be a 
very professional kind of force that everybody would respect and that 
can carry out what is going to be a really, really hard mission.
    Mr. Tiersky. Yes, please.
    Questioner. Mantos [ph].
    I have a question regarding providing military arms to Ukraine. 
Based on the previous events on military battles back in the--
[inaudible]--or Donbas region, when the Ukraine Army retreats, and in 
many cases it was sort of like leaving army and military capabilities 
behind. And overall, that--the Russian-backed separatists, they took it 
over and used against the Ukrainian Army. So would you see a sort of 
technique or military capabilities additional applies to prevent that 
United States military capabilities wouldn't end up on Russian backed-
up separatists, for example, like, anti-tank Javelin?
    Thank you.
    Gen. Hodges. I would imagine that that was all factored into the 
decision that, let's say, two or three or four of these things were 
captured, for example. I think that the technology is not something 
that's so--it's worth it. I mean, we have these things in Afghanistan. 
We've run the risk of getting them captured in a lot of different 
places. So I'm sure that would have been taken into account. And I'm 
sure the Ukrainians, as they think about how they're going to employ 
them, obviously they're going to want to protect them and not lose 
them, just the way they have with the radar--the different types of 
radar that have been provided.
    So I'm pretty confident that they would be smart about how they 
would use it. But, you know, you can always assume you're going to lose 
some equipment, especially in a messy thing like Debaltseve where 
you've got that many people that close that are fighting against each 
other. I mean, the Russians have very good--you know, Kornet system is 
a very, very good anti-tank system as well. We still don't want to see 
the Ukrainians lose--I'm not so worried about the Russians getting it. 
I'm worried about the Ukrainians losing that sort of capability.
    Mr. Tiersky. Sir, let me zoom now way back out to where we started, 
and offer you a chance at some kind of overarching and concluding 
thoughts along two areas that I'd like to ask you about. As you know, 
the Helsinki Commission flows from the same process that is now 
manifest in the OSCE that you've mentioned a couple of times. We've had 
the opportunity to talk about the monitoring mission in Ukraine.
    For those who are more interested in the monitoring mission, I'd 
just remind you we had an excellent briefing here at the end of last 
year with a senior monitor from the front lines. So I commend that to 
your attention. The OSCE is a consensus-based organization in which the 
Russians are members. Talk to us about the continued value you do or do 
not see of the OSCE as an institution.
    I'll give you the second concluding question as well. Give us your 
laundry list for Congress. After all, we are here in the halls of 
Congress. What more should Congress be doing, or what should Congress 
be doing differently, to support the efforts of both the troops that 
you led, and also the efforts of our allies and partners in the region?
    Gen. Hodges. I have grown to love and respect multinational, 
international organizations because, again, the United States, we can't 
do anything by ourselves. We just don't have the--not something that's 
lasting. If we want it to last, you've got to have other nations 
invested in it. And our European allies and other partners that are in 
Europe have a lot of respect for organizations like OSCE, United 
Nations, and the various other organizations that are out there. And so 
we really are hurting ourselves if we disdain those organizations.
    We don't have to like them, and certainly there's ways to put 
leverage on these organizations, but one of the things, for example, 
the Germans always want to see is, oh, we got to keep talking to the 
Russians. Well, OSCE is there. You know, you got a Russian ambassador 
as well as a U.S. ambassador, and 55 other ambassadors that are there. 
So it's a place where you can continuously engage.
    You know, the former ambassador to the OSCE, Ambassador Dan Baer, 
one of the great public servants I have ever known in my life--I wish 
he was still there as the ambassador--gave me the chance to give a 
presentation in front of one of their big sessions. And I loved it 
because the Russian ambassador came right up to me and got in my face 
afterwards, and, you know, I got a lot of that. And it was awesome. 
[Laughter.] But I knew that I had gotten to him.
    And so--but it's a place. And you can understand, when you think 
about what Germany suffered in World War II in terms of the 
destruction--as did other countries after World War II, as did Russia--
you could understand why there's a lot of reluctance of anything that 
looks like it's going to lead towards another conflict. And so our 
involvement in something like OSCE, that's respected, helps keep our 
allies onside.
    The first time I ever heard of OSCE was when the Dayton Peace 
Accords were being put together, and listening to General Joulwan talk 
about, hey, we got to get OSCE involved in this. He recognized the 
importance of an organization like that. And it is--again, it's a venue 
when you can talk to the Russians, someone in Russia thinking, okay, 
we're out of trouble, it's back to business as usual. It's not. But 
it's another venue. So I value it. And, again, Dan Baer was an 
exceptional public servant.
    What can the Congress do? There's three or four things. First of 
all, that European Reassurance Initiative, now the European Deterrence 
Initiative, is so important. I mean, that's what's paying for 
everything--rotational forces, pre-positioned equipment, exercises--all 
the things that are an essential part of the deterrence. Without that, 
we really would have a hard time creating the deterrent effect that 
U.S. European Command is expected to do right now.
    So that's very helpful. And I was impressed that, first, the number 
of CODELs that came over and STAFFDELs that came over last year, and 
the fact that I did not encounter one member or one staffer, not one, 
in really the last three years, who said: What are we doing here? Why 
are we doing this? Somebody else should be doing this, not us. Not a 
single--no matter what party, no matter what committee, no matter what. 
They were all in support of stability and security in Europe. So that, 
to me, was very encouraging.
    Now, I can remember when I worked in congressional liaison a few 
years ago and we were looking at BRAC. And a very distinguished member 
of the Senate Armed Service Committee said: General, why should we 
close Fort X when we got all those troops just sitting in motor pools 
in Germany? Now, he was about 10 years behind on understanding what we 
actually had in Germany. We had already gone from 300,000 down to about 
50,000. It's down to 30,000 now. But it also--I was alarmed because it 
was a member of the Senate Armed Service Committee that did not 
appreciate why you're there. So, I mean, 30,000 troops, that would not 
even fill up half of a stadium where the Redskins play. I mean, we're 
talking about it's a tiny little number of troops there, but it has a 
significant effect.
    And we used to talk about our mission was to make 30,000 look and 
feel like 300,000, to achieve the same deterrent effect that we did 
when we had 300,000 back in the 1970s and 1980s. And we did it 
through--because of that EDI and some great young men and women being 
spread out all over the place, and putting more and more responsibility 
on very junior leaders, where a captain and his first sergeant might be 
the senior Americans in a country, other than the ambassador. But yet, 
they understood what they were trying to do, and so to show that 
presence everywhere. So continuing to support that.
    Now, back to why should we close a fort when you got all those 
troops sitting in Europe--I've had a lot of members and staff say, hey, 
we need to station somebody in Poland. We need to station somebody in 
Lithuania. We need to get more troops over there. But unless the Army 
grows, or the Air Force grows, then they're coming from Fort Hood or 
Fort Carson or Fort Lewis or Fort Bragg. I mean, they're going to come 
from somewhere in the U.S. if you want to permanently station somebody 
in there.
    And honestly, I've not met a single member that was willing to say 
go ahead and take a brigade out of Fort Carson or Fort Hood. That's not 
going to happen. Everybody can live with rotational forces, but not 
give them up to move them from Fort Riley--I don't think. I could be 
wrong, but I haven't met that member yet. So in order to increase 
capability in Europe, I think you're going to have to grow the Army to 
some--and I'm very happy, we are getting a new artillery brigade, 
actually with two rocket launcher battalions, will show up in the next 
2 years. That's new growth. That's not coming from Fort Wherever. An 
Avenger battalion, which is a short-range air defense. So there is some 
growth, which I think is very helpful.
    And then finally, this notion of 2 percent is very important, 
absolutely. Every member of the alliance should--has to do its part. 
But I think let's continue to highlight those countries that are doing 
their part, to include that are moving in the right direction. But 
also, I think we can be a little bit more sophisticated about what 2 
percent means. You can find ways to encourage, versus just continue to 
beat them over the head with a 2 percent club. Instead, you know, rail, 
ports, transport, missile defense--things that are not controversial 
that even, I think the SPD could probably get behind. Let's make it 
easier for them to do that. And I think the Congress understanding that 
would be very helpful.
    Mr. Tiersky. Wonderful. General Hodges, your participation in this 
event, your insights are absolutely critical to the commission 
continuing to fulfill its mandate. Thank you. Congratulations on your 
extraordinarily distinguished Army career. We very much look forward to 
continued collaboration in the second half of your career, as you join 
CEPA and ramp up there.
    Thank you very much, ladies and gentlemen. There will be a 
transcript of this event on the website of the Commission probably by 
the end of the week. Please join me in thanking General Hodges. 
[Applause.]
    [Whereupon, at 11:31 a.m., the briefing ended.]


  

            This is an official publication of the Commission on
                    Security and Cooperation in Europe.

                  <SUP><</SUP> <SUP><</SUP> <SUP>< </SUP>

                  This publication is intended to document
                  developments and trends in participating
                  States of the Organization for Security
                     and Cooperation in Europe (OSCE).

                  <SUP><</SUP> <SUP><</SUP> <SUP>< </SUP>

           All Commission publications may be freely reproduced,
            in any form, with appropriate credit. The Commission
            encourages the widest possible dissemination of its
                               publications.

                  <SUP><</SUP> <SUP><</SUP> <SUP>< </SUP>

                      www.csce.gov       @HelsinkiComm

                 The Commission's Web site provides access
                 to the latest press releases and reports,
                as well as hearings and briefings. Using the
         Commission's electronic subscription service, readers are
            able to receive press releases, articles, and other
          materials by topic or countries of particular interest.

                          Please subscribe today.
</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
